M-131618

Visa® Credit Card

Terms & Conditions

The words “you”, “your” and “yours” mean each and all of those who apply for, sign, or are authorized to use the Visa Credit Card. The words “we”, “us”, “our”, “MHV”, and “Credit Union”
each mean Mid-Hudson Valley Federal Credit Union.
1. Acceptance of Terms. Use of the card indicates acceptance of these terms and the MHV Membership Terms & Conditions.
2. Credit Limit: We will establish your Credit Limit as the maximum principal amount of credit available to you under this Agreement, which we will provide in writing. You agree not
to purchsae or obtain advances above your credit limit at any time. If you do it is a condition of default, subject to remedies stated below. You will pay any amounts which exceed the
maximum limit upon demand. You understand that your Credit Limit can be increased and decreased by us at any time; however, you will be notified in writing.
3. Finance Charge. A finance charge (interest) will be charged at the periodic rate per month on any outstanding balances. The finance charge (interest) is calculated based on
two balances for your account: purchases balance and cash advances balance. The finance charge is based on the average daily balance in both cases. To compute the average
daily balance for your account, we take the beginning purchases balance (or cash advance balance) in your account each day, add any new purchases (or cash advances), subtract
payments or credits, which applied to that day’s purchases (or cash advances), as well as unpaid finance charges from previous months (finance charges are not included as part of
your balance when determining the average daily balance). We then add up all the daily balances for Purchases; and for Cash Advances, for the billing cycle. We divide those totals by
the number of days in the billing cycle, thus we have the Average Daily Balance of Purchase and the Average Daily Balance of Cash Advances. Finance charges (interest) charged on
the outstanding balance will be at the periodic rate per month on any outstanding balances that are not paid within the allowable grace period established by the Credit Union’s Board of
Directors. The grace period applies only to purchases, not to cash advances. The minimum finance charge is $.50.
4. Monthly Statement. At the end of each billing cycle that your account balance is greater than $1, you will receive a monthly statement showing the previous balance, all purchases
and advances during that monthly period, finance charges, late charges (if any), new balance, minimum payment due, payment due date, periodic rate (percentage rate of finance
charge which is charged against the balance for that period), and the annual percentage rate (which is the annual cost of credit in percentage terms).
5. Purchases and Advances. You can use your card to make purchases from any business accepting Visa cards. Using your card and Personal Identification Number (PIN) you can
get cash advances from any bank that accepts Visa and from participating ATM’s. For advances and purchases, there may be a limit for each transaction or a daily limit. Convenience
checks are posted to your account as cash advances. We are not responsible for the refusal of any plan, merchant or financial institution to honor your card.
6. Minimum Payment/Payment Allocation. The minimum payment is the larger of twenty-five dollars ($25) or 1.67% of the total amount of purchases, advances and late charges.
Payments over the minimum will be applied to the highest rate APR. Payments received by 5pm will be credited the same business day.
7. Lost or Stolen Cards. If your card, personal identification number or both are lost or stolen, or are being used without your authorization, immediately notify Visa Security directly
at 1.800.449.7728. Your card will be closed and a replacement card will be sent. If your card is used by an unauthorized person, you will have no liability if you notify us of any
unauthorized charge(s) within a 60-day period following the closing date of the statement on which the charges appear. Funds will be refunded within 10 days of notification. You should
provide us with written documentation of all fraudulent charges. However, the liability can be increased up to the limit if it is determined that you have handled your card fraudulently or
were grossly negligent.
8. Default and Collection Cost. You will be in default under this Agreement if any of the following events shall occur: (a) If you fail to comply with the minimum payment or any other
terms or conditions of this Agreement or any other obligation you have or will have with us; (b) If you make false or misleading statements in any credit application or update of credit
or membership information; (c) If you should die or become insolvent; (d) If a petition should be filed or other proceedings should be started under the Federal Bankruptcy Code or
any State insolvency statute by or against you; (e) If a Receiver should be appointed or a writ or order of attachment, levy or garnishment should be issued against you or any of your
property, assets or income; or (f) If we should consider yourself or any debts due under this Agreement unsafe or not completely secure or (g) if we should believe, in good faith, that
the chances of your paying or performing all of your obligations under this Agreement have been impaired. The credit union may demand immediate payment of the full balance upon
your failure to pay the minimum amount due on time or exceeding your credit limit without our permission. If the credit union asks that any amount owed be paid because one of the
above events occurred, and the credit union refers the claim for collection to an attorney, you will be liable for any collection costs, including court costs and reasonable attorney fees. In
accordance with the Fair Credit Billing Act, the Credit Union reserves the right to offset your depository account for delinquent payments.
9. Delay in Enforcement. We can delay enforcing our rights under this agreement without losing them.
10. Credit Reports. You authorize us to make or have any credit, employment and investigative inquiries as we deem appropriate for the extension of credit or collection of amounts
owed on this account. We can furnish information concerning your account or credit file to consumer reporting agencies and others who may properly receive that information. We
may request an updated credit report/credit score for purposes of determining your annual percentage rate. We may report information about your account to credit bureaus. If you
fail to fulfill the terms of this Agreement, including making late payments, missing payments, or other default on your account, a negative report reflecting on your credit record may be
submitted to a credit reporting agency.
11. Amendment of Agreement/Right to Cancel. We can change this agreement at any time. However, if we do, we will mail you a written notice at least 45 days before the onset of
your billing cycle, in which the changes become effective. If you do not agree with the changes, you must notify us in writing within 45 days and discontinue use of your card. You must
also pay the balance of your account under the terms of the prior agreement.
12. Disclosure of Account. Information to third parties: We will disclose information to third parties about your accounts (a) in order to verify the existence and condition of your
account for a third party, such as a credit bureau; (b) in order to comply with a government agency or court order; and (c) if you give us your written permission.
13. Your Billing Rights. This notice contains information about your rights and our responsibilities under the Fair Credit Billing Act.
Notify us in case of errors or questions about your bill. If you think your bill is wrong or if you need more information about a transaction on your bill, write us on a separate sheet at the
address listed on your statement within 60 days after the statement closing date, on the first statement which indicated the error or mistake. Please include the following information in
your letter:
• Your name and account number
• The dollar amount of the suspected error
• Describe the error and your evaluation as to how the error may have occurred
If you have authorized us to pay your credit card bill from your savings or checking account, you can stop the payment in writing received at least three business days before the
automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice. We must acknowledge your letter within 30 days, unless we have corrected the error by then. Within 90
days, we must either correct the error or explain why we believe the bill was correct. After we receive your letter, we cannot try to collect any amount you question, or report you as
delinquent. We can continue to bill you for any amount you question, including finance charges, and we can apply any unpaid amount against your credit limit. You do not have to pay
any questioned amount while we are investigating, but you are still obligated to pay the parts of the bill that are not in question. If we made a mistake on your bill, you will not have to
pay any finance charge related to the questionable amount. If we didn’t make a mistake, you may have to pay finance charges, and you will have to make up any missed payments on
the questioned amount. You will receive a statement with the amount you owe and the due date. If you fail to pay the amount due, we may report you as delinquent. However, if the
explanation still does not satisfy you, write to us within 10 days explaining that you still refuse to pay, and we must tell you who your delinquency was reported to. If the matter is settled
between us, we must inform anyone we reported your delinquency to that the matter has been settled. If we do not follow these rules, we cannot collect the first $50 of the questioned
amount, even if your bill was correct.
14. Specific Rule for Credit Card Purchases. If you have a problem with the quality of property or service that you purchased with a credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay the remaining amount due on the property or service. There are two limitations on this right: (a) You must have
made the purchase within your home state, or within 100 miles of your current mailing address, and (b) The purchase price must have been more than $50. These limitations do not
apply if we own or operate the merchant, or if we mailed you the advertisement for the property or service.
15. Cancellations. You may cancel your account at any time by notifying us in writing and discontinuing use of your card. However, you remain responsible to pay the unpaid balance
with interest and any other charges according to the terms of the agreement. The credit union may cancel or suspend your card privileges at any time without prior notice.
16. Other Agreements. In addition to the provisions of this agreement, use of your credit card is subject to other terms, conditions and disclosures of the Mid-Hudson Valley Federal
Credit Union accounts that may be used.
17. Applicable Law. The relationship between you and the credit union is controlled by New York State and the National Credit Union Administration Rules and Regulations.
18. International Currency Conversion/Travel. The exchange rate for international transactions will be a rate selected by Visa from the range of rates available in wholesale currency
markets, which may vary from the rate Visa itself receives, or the government-mandated rate in effect for the applicable central processing date, plus 1%. Please contact us before
traveling abroad as some restrictions may apply in foreign countries.
19. Secured Visa Cards. Should your Visa card be approved based on pledging security in your share account, you agree to maintain said amount of credit limit plus 25% in a deposit
account to secure it in addition to the $5 minimum balance required to maintain your membership status. The credit union will freeze said share amount required to secure your Visa and
will only consider releasing the frozen amount based on an updated credit decision. Should the security hold be released, your APR may increase. Should you become delinquent on
your secured Visa, you agree to allow the credit union to offset your balance with said share amount.
20. Illegal Transactions. You may not use the Card for any illegal or unlawful transaction, and we may decline to authorize any transaction that we believe poses an undue risk of
illegality or unlawfulness.
21. CURewards Local Rules & Conditions.
For Platinum+Rewards: The limit on the number of points that can be earned on a Rewards card through the CURewards program is 7,000 in a calendar month and 35,000 in a
calendar year. Points accrue over four (4) calendar years and expire on a first-in-first-out basis annually; i.e., points earned in calendar year one will expire as of the last business day
of calendar year four.
For Signature: Points accrue over five (5) calendar years and expire on a first-in-first-out basis annually; i.e., points earned in calendar year one will expire as of the last business day of
calendar year five.
22. Joint Accounts, Co-Signers & Business Accounts: If you designate a joint owner, co-signer or business officer on this account, all parties have full rights to use available credit,
make payments and close the card(s). The credit union is only obligated to provide a periodic statement to the address of record.

Interest Rates and Interest Charges
Visa Platinum
Annual Percentage
Rate (APR) for
Purchases

Visa Signature

1.99% introductory APR 0% introductory APR on

Visa Platinum Business

Prime + 8.75%

for 12 billing cycles. After that,
your APR will be

purchases for 6 billing cycles.
After that, your APR will be

Prime + 7.49%
to 10.49%

Prime + 8.74%
to 11.74%

APR for Balance
Transfers

1.99% introductory APR for
12 billing cycles. After that,
your APR will be Prime
+ 7.49% to 10.49%
based on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

Prime + 8.74% to 11.74%
based on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

Prime + 8.75%
This APR will vary with the
market based on the Prime
Rate.*

APR for Cash
Advances

1.99% introductory APR for
12 billing cycles. After that,
your APR will be Prime +
7.49% to 10.49% based
on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

Prime + 8.74% to 11.74%
based on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

Prime + 8.75%
This APR will vary with the
market based on the Prime
Rate.*

Penalty APR and
When it Applies

None

None

None

How to Avoid
Paying Interest
on Purchases

Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you
any interest on purchases if you
pay your entire balance by the
due date each month. We will
begin charging interest on cash
advances, convenience checks
and balance transfers on the
transaction date.

Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you
any interest on purchases if you
pay your entire balance by the
due date each month. We will
begin charging interest on cash
advances, convenience checks
and balance transfers on the
transaction date.

Your due date is at least 25 days
after the close of each billing
cycle. We will not charge you
any interest on purchases if you
pay your entire balance by the
due date each month. We will
begin charging interest on cash
advances, convenience checks
and balance transfers on the
transaction date.

Minimum Interest
Charge

If you are charged interest, the If you are charged interest, the If you are charged interest, the
charge will be no less than $.50. charge will be no less than $.50. charge will be no less than $.50.

For Credit Card Tips
from the Consumer
Financial Protection
Bureau

To learn more about factors
to consider when applying
for or using a credit card, visit
the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.
gov/learnmore.

To learn more about factors
to consider when applying
for or using a credit card, visit
the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.
gov/learnmore.

To learn more about factors
to consider when applying
for or using a credit card, visit
the website of the Consumer
Financial Protection Bureau at
http://www.consumerfinance.
gov/learnmore.

None

None

None

Transaction Fees
• Balance Transfer
None
• Cash Advance
2% or $10 (whichever is greater)
• Foreign Transaction 1% of each transaction in U.S.
dollars

None
2% or $10 (whichever is greater)
1% of each transaction in U.S.
dollars

None
2% or $10 (whichever is greater)
1% of each transaction in U.S.
dollars

Penalty Fees
• Over-the-Credit Limit None
• Late Payment
Up to $35
• Returned Payment Up to $35

None
Up to $35
Up to $35

None
Up to $35
Up to $35

based on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

This APR will vary with the
market based on the Prime
Rate.*

based on annual review of
creditworthiness. This APR will
vary with the market based on
the Prime Rate.*

Fees
Annual Fee

How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases and cash
advances).
The Annual Percentage Rate is calculated by adding 7.49% to 10.49% for Visa Platinum, 8.74% to 11.74% for Visa Signature,
or 8.75% for Visa Platinum Business to the highest Prime Rate as printed in the Wall Street Journal on the 15th of March, June,
September & December. Rate ceiling is 18%. Visit www.mhvfcu.com for current rates.
*

800.451.8373 • www.MHVFCU.com

M-131618 06/2020

